HHS/OIG-Audit--"Monitoring the Health Care Financing Administration's Medicare Transaction System--Status Report, (A-14-93-02543)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Monitoring the Health Care Financing Administration's Medicare Transaction
System--Status Report," (A-14-93-02543)
November 9, 1995
Complete Text of Report is available in PDF format
(2.46 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Medicare Transaction System (MTS) is intended to be a single, integrated
claims processing system to be phased in by the Health Care Financing Administration
(HCFA) beginning in 1997 with full implementation before the end of 1999. Our
review of the work done on the system to date indicates that HCFA has taken
a number of steps to include a broad range of functions related to Medicare
benefits administration within the scope of the new system. Also, HCFA is making
a concerted effort under MTS to improve internal and financial management controls
over Medicare benefits payments. Our final report points out additional steps
HCFA can take to maximize the operating effectiveness of the new system. Recommendations
call for actions HCFA can take to (1) assure flexibility and adaptability of
the MTS design for meeting future program requirements, and (2) cover certain
weaknesses and limitations in current Medicare claims processing that have not
yet been addressed so that these conditions are not carried over into the new
system.